No. 19-438
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CLEMENTE AVELINO PEREIDA, PETITIONER
v.
WILLIAM P. BARR, ATTORNEY GENERAL
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT, via email and first-class mail, postage prepaid, this 27th
day of February, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12,997
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
February 27, 2020.

February 27, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0438
PEREIDA, CLEMENTE AVELINO
WILLIAM P. BARR, ATTORNEY GENERAL
THOMAS N. BONDY
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
DAVID V. CHIPMAN
MONZON, GUERRA & ASSOCIATES
1133 H STREET
LINCOLN, NE 68508
ALINA DAS
IMMIGRANT RIGHTS CLINIC
WASHINGTON SQUARE LEGAL SERVICES,
INC.
NEW YORK UNIVERSITY SCHOOL OF LAW
245 SULLIVAN STREET, 5TH FLOOR
NEW YORK, NY 10012
212-998-6430
ALINA.DAS@NYU.EDU
BRIAN P. GOLDMAN
ORRICK, HERRINGTON & SUTCLIFFE LLP
405 HOWARD STREET
SAN FRANCISCO, CA 94105
415-773-5700
BRIAN.GOLDMAN@ORRICK.COM
DAVID G. KEYKO
PILLSBURY, WINTHROP, SHAW, PITTMAN
LLP
31 WEST 52ND STREET
NEW YORK, NY 10019-6131
212-858-1604
DAVID.KEYKO@PILLSBURYLAW.COM

VIA EMAIL

DAVID SAPIR LESSER
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007
212-230-8800
DAVID.LESSER@WILMERHALE.COM
E. JOSHUA ROSENKRANZ
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 WEST 52ND STREET
NEW YORK, NY 10019
JAYASHRI SRIKANTIAH
IMMIGRANTS' RIGHTS CLINIC
MILLS LEGAL CLINIC-STANFORD LAW
SCHOOL
CROWN QUADRANGLE
559 NATHAN ABBOTT WAY
STANFORD, CA 94305-8610
650-724-1900
JSRIKANTIAH@LAW.STANFORD.EDU

